OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
         TECHNOLOGY PROGRAM GRANT
        AWARDED TO BONNEVILLE COUNTY
             IDAHO FALLS, IDAHO

            U.S. Department of Justice
          Office of the Inspector General
                   Audit Division


        Audit Report Number GR-60-10-006
                     June 2010
             OFFICE OF COMMUNITY ORIENTED POLICING

              SERVICES TECHNOLOGY PROGRAM GRANT 

                 AWARDED TO BONNEVILLE COUNTY

                        IDAHO FALLS, IDAHO


                          EXECUTIVE SUMMARY


        The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Community Oriented Policing Services (COPS Office)
Technology Program Grant No. 2007-CK-WX-0033 in the amount of
$2,998,875 awarded to Bonneville County, Idaho. The COPS Technology
Grant Program is designed to assist state, local and tribal law enforcement
agencies procure technology that enhances the ability to share information
with regional, state and federal partners. Grants are intended to help
facilitate the sharing of information across multiple jurisdictions, with the
ultimate objective of increasing public safety. Specifically, the purpose of
Grant No. 2007-CK-WX-0033 is to assist Bonneville County to build the
infrastructure of a new digital radio communication system and provide its
partner agencies with funding to purchase compatible mobile and portable
radio equipment. Through this funding Bonneville County indicated that the
inadequacies of the current communications system and lack of
interoperability would be improved so that partner agencies could coordinate
responses and share information that may save lives, solve crimes, and
better serve the community.

       The COPS Office was established as a result of the Violent Crime
Control and Law Enforcement Act of 1994 to assist law enforcement
agencies in enhancing public safety through the implementation of
community policing strategies in jurisdictions of all sizes across the country.
Community policing represents a shift from more traditional law enforcement
in that it focuses on prevention of crime and the fear of crime on a local
basis. Community policing puts law enforcement professionals on the
streets and assigns them a beat so they can build mutually beneficial
relationships with the people they serve.

      Bonneville County is the fourth largest county in the State of Idaho;
Idaho Falls is the county seat and the greatest population area. The Idaho
Falls metropolitan area is comprised of Bonneville County and Jefferson
County. With 1,868 square miles in Bonneville County and 1,095 square
miles in Jefferson County there are many geographical challenges for
interoperability – terrain varies from high mountain desert on the western
side to the mountains and forest land on the east. First responders in the
region include ten fire/emergency medical service departments, four major
law enforcement agencies, two marshals, one organized volunteer search
and rescue, and the emergency management offices of both counties.
According to the U.S. Census Bureau, the 2009 population of the Idaho Falls
metropolitan area was estimated at 126,131.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, including personnel and indirect costs, (4) budget
management and control, (5) matching, (6) property management,
(7) program income, (8) financial status and progress reports, (9) grant
requirements, (10) program performance and accomplishments, and
(11) monitoring of subgrantees and contractors. We determined that
personnel and indirect costs, program income, and monitoring of
subgrantees were not applicable to this grant. As shown in Table 1,
Bonneville County was awarded $2,998,875 in federal funds to implement
the grant program and was required to match $999,625, which represents
25 percent of the total.

  TABLE 1: COPS TECHNOLOGY PROGRAM GRANT TO BONNEVILLE COUNTY
                               AWARD START          AWARD
         GRANT AWARD                                               AWARD AMOUNT
                                  DATE             END DATE

     2007-CK-WX-0033             09/01/07          08/31/10              $2,998,875

     Local Match                                                            999,625
                                                       Total:            $3,998,500

  Source: Office of Community Oriented Policing Services (COPS Office)

       We examined Bonneville County’s accounting records, financial and
progress reports, and operating policies and procedures and did not find any
significant exceptions. Our audit objectives, scope, and methodology are
discussed in Appendix I.




                                          - ii ­
                                      TABLE OF CONTENTS



INTRODUCTION .................................................................................1

     Background.................................................................................2

     Our Audit Approach ....................................................................3


FINDINGS AND RECOMMENDATIONS.................................................4

     Internal Control Environment .....................................................4

           Single Audit.............................................................................4

           Financial Management System...................................................5

     Drawdowns.................................................................................5

     Transaction Testing ....................................................................6

     Budget Management and Control ................................................6

     Matching Costs............................................................................7

     Accountable Property..................................................................7

     Reports .......................................................................................8

           Financial Status Reports............................................................8

           Program Progress Reports .........................................................9

     Compliance with Grant Requirements .........................................9

     Program Performance and Accomplishments............................10

     Monitoring Contractors .............................................................11


APPENDIX I         - OBJECTIVES, SCOPE, AND METHODOLOGY ..............12


APPENDIX II - OFFICE OF COMMUNITY ORIENTED POLICING

              SERVICES RESPONSE TO THE DRAFT REPORT..........14

             OFFICE OF COMMUNITY ORIENTED POLICING

              SERVICES TECHNOLOGY PROGRAM GRANT 

                 AWARDED TO BONNEVILLE COUNTY

                        IDAHO FALLS, IDAHO


                             INTRODUCTION



        The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Community Oriented Policing Services (COPS Office)
Technology Program Grant No. 2007-CK-WX-0033 in the amount of
$2,998,875 awarded to Bonneville County, Idaho. The COPS Technology
Grant Program is designed to assist state, local and tribal law enforcement
agencies procure technology that enhances the ability to share information
with regional, state and federal partners. Grants are intended to help
facilitate the sharing of information across multiple jurisdictions, with the
ultimate objective of increasing public safety. Specifically, the purpose of
Grant No. 2007-CK-WX-0033 is to assist Bonneville County to build the
infrastructure of a new digital radio communication system and provide its
partner agencies with funding to purchase compatible mobile and portable
radio equipment. Through this funding Bonneville County indicated that the
inadequacies of the current communications system and lack of
interoperability would be improved so that partner agencies could coordinate
responses and share information that may save lives, solve crimes, and
better serve the community.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, including personnel and indirect costs, (4) budget
management and control, (5) matching, (6) property management,
(7) program income, (8) financial status and progress reports, (9) grant
requirements, (10) program performance and accomplishments, and
(11) monitoring of subgrantees and contractors. We determined that
personnel and fringe costs, supplies costs, consultant/contractual costs,
indirect costs, program income, and subgrantees were not applicable to this
grant. As shown in Table 1, Bonneville County was awarded $2,998,875 in
federal funds to implement the grant program and was required to match
$999,625, which represents 25 percent of the total.
  TABLE 1. COPS TECHNOLOGY PROGRAM GRANT TO BONNEVILLE COUNTY

                            AWARD START        AWARD
         GRANT AWARD                                       AWARD AMOUNT
                               DATE           END DATE
     2007-CK-WX-0033          09/01/07        08/31/10         $2,998,875

     Local Match                                                  999,625
                                                  Total:      $3,998,500

  Source: COPS Office

Background

      The COPS Office was established as a result of the Violent Crime
Control and Law Enforcement Act of 1994 to assist law enforcement
agencies in enhancing public safety through the implementation of
community policing strategies in jurisdictions of all sizes across the country.
Community policing represents a shift from more traditional law enforcement
in that it focuses on prevention of crime and the fear of crime on a local
basis. Community policing puts law enforcement professionals on the streets
and assigns them a beat so they can build mutually beneficial relationships
with the people they serve.

      Bonneville County is the fourth largest county in the State of Idaho;
Idaho Falls is the county seat and the greatest population area. The Idaho
Falls metropolitan area is comprised of Bonneville County and Jefferson
County. With 1,868 square miles in Bonneville County and 1,095 square
miles in Jefferson County there are many geographical challenges for
interoperability – terrain varies from high mountain desert on the western
side to the mountains and forest land on the east. First responders in the
region include ten fire/emergency medical service departments, four major
law enforcement agencies, two marshals, one organized volunteer search
and rescue, and the emergency management offices of both counties.
According to the U.S. Census Bureau, the 2009 population of the Idaho Falls
metropolitan area was estimated at 126,131.

      The COPS Office plans to continue to accomplish its mission by:

   •	 Creating innovative programs that respond directly to the emerging
      needs of state, local, and tribal law enforcement, to shift law
      enforcement's focus to preventing, rather than reacting to, crime and
      disorder within their communities.




                                         2

   •	 Developing state-of-the-art training and technical assistance to
      enhance law enforcement officers' problem-solving and community
      interaction skills.

   •	 Promoting collaboration between law enforcement and community
      members to develop innovative initiatives to prevent crime.

   •	 Providing responsive, cost effective service delivery to grantees to
      ensure success in advancing community policing strategies within their
      communities.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the COPS 2007 Technology Program Grant
Owner’s Manual and the grant award documents.

      In conducting our audit, we performed sample testing in four areas:
drawdowns, grant expenditures, matching, and asset management. In
addition, we reviewed the timeliness and accuracy of Financial Status
Reports (FSRs) and progress reports, evaluated performance to grant
objectives, and reviewed the internal controls of the financial management
system. The results of our audit are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                      3

               FINDINGS AND RECOMMENDATIONS

     Our audit did not reveal any noncompliance with regard to COPS
     Office grant requirements. Specifically, we found that Bonneville
     County’s internal control environment appears to be adequate to
     segregate duties, trace transactions, and limit access to
     systems. We also found that grant drawdowns and expenditures
     were properly supported, budget management and control
     appeared adequate, reports were accurate and submitted timely,
     and contractors were adequately monitored. Additionally, we
     found that property purchased with grant funds was labeled with
     identification numbers and logged on inventory lists. Although
     we found the project is behind schedule, Bonneville County
     officials stated they are monitoring the timeline and intend to
     request a time extension for the grant’s end date.

Internal Control Environment

       We reviewed Bonneville County’s financial management system,
policies and procedures, and Single Audit Reports to assess the risk of
noncompliance to laws, regulations, guidelines, and terms and conditions of
the grant. We also interviewed individuals from several areas such as grant
project management, accounts payable, and county oversight, and
evaluated grant management practices to further assess risk.

Single Audit

      Office of Management and Budget (OMB) Circular A-133 requires
grantees to perform a Single Audit if federal expenditures exceed $500,000
in a year. We determined Bonneville County was required to perform a
Single Audit in 2008 and 2009, as the county’s federal award expenditures
exceeded $500,000 in each fiscal year (FY). Bonneville County’s FY is from
October 1 through September 30.

      Bonneville County’s FY 2009 Single Audit was not completed at the
time of our audit. As a result, we reviewed the FY 2008 Single Audit for
findings related to Bonneville County’s internal controls and compliance.
Based on our review of the FY 2008 Single Audit, we identified two findings,
including one material weakness; however, none of the findings were related
to the COPS Technology Grant, any other Department of Justice (DOJ) grant,
or the DOJ as a whole.




                                     4

Financial Management System

      Bonneville County’s financial management system is Computer Arts;
Bonneville County officials explained the system was developed by the State
of Idaho and is in use by most Idaho counties. Based on our review the
financial management system, policies and procedures, and interviews with
Bonneville County personnel, Bonneville County appears to use an adequate
system of internal controls to ensure compliance with applicable
requirements of the COPS Office Technology Program. The financial
management system provides for segregation of duties, transaction
traceability, system security, and limited access.

Drawdowns

      According to the COPS 2007 Technology Program Grant Owner’s
Manual, grant recipients should request funds based upon immediate
disbursement needs to ensure that federal cash on hand is the minimum
needed for disbursements or reimbursements to be made immediately or
within 10 days. Bonneville County officials stated that drawdowns were
based on actual expenditures in the accounting records. We reviewed
Bonneville County’s accounting records and determined drawdowns were
requested based on actual expenditures. We also compared expenditure
amounts to drawdowns and found that drawdown amounts matched
expenditures, as shown in Table 2. We did not identify any excess
drawdowns.

  TABLE 2. DRAWDOWNS VERSUS ACCOUNTING RECORDS 1
                                          GRANT
                                      EXPENDITURES                           CUMULATIVE
                                     PER ACCOUNTING                         EXPENDITURES
     DATE OF           AMOUNT         RECORDS FOR         CUMULATIVE             PER
    DRAWDOWN          DRAWN PER        DRAWDOWN           DRAWDOWNS         ACCOUNTING
     PER OJP             OJP             PERIOD             PER OJP          RECORDS

     07/15/08          $792,524          $1,021,259           $792,524        $1,021,259

     11/03/08            349,406             360,127         1,141,931         1,381,386

     12/23/08            313,662             349,988         1,455,593         1,731,374

     07/09/09            193,665             260,232         1,649,258         1,991,606
  Source: Office of Justice Programs (OJP) and Bonneville County accounting records




      1
          Throughout this report, differences in the total amounts are due to rounding.


                                               5
Transaction Testing

     We reviewed Bonneville County’s general ledger for Grant No.
2007-CK-WX-0033, and found there were a total of 22 transactions: 13 for
purchase and installation of radio equipment, and 9 related to travel for
COPS grant training. Four transactions were expenditures of grant funds
and 18 were paid by Bonneville County as local match. We sampled
100 percent of the grant funded transactions and found no discrepancies.

Budget Management and Control

       As stated previously, Bonneville County was awarded federal funding
totaling $2,998,875, with a required local match of $999,625. According to
the COPS 2007 Technology Program Grant Owner’s Manual, movement of
dollars between approved budget categories is allowed up to 10 percent of
the total award amount as last approved by the COPS Office, provided there
is no change in project scope. As shown in Table 3, Bonneville County’s
original approved budget allowed for expenditures in the
Equipment/Technology, Other Costs, and Travel/Training categories. On
August 11, 2008, COPS Office officials approved a reallocation of $7,252
from the grant’s Travel/Training budget category to Equipment/Technology.
Since the adjustment was well within the allowances of the 2007 Technology
Program Grant Owner’s Manual and approved by the COPS Office, we
concluded there were no discrepancies in the control and management of
the approved budget.




                                    6

TABLE 3. BUDGET MANAGEMENT AND CONTROL

                                ORIGINAL        APPROVED         MODIFIED
                                 GRANT         ADJUSTMENT         GRANT            ACTUAL
      COST CATEGORY              BUDGET          AMOUNT           BUDGET        EXPENDITURES
  Personnel                               -               -                -                    -

  Fringe Benefits                         -               -                -                    -

  Travel                           12,000           -7,252            4,748               611

  Equipment                     3,407,000            7,252        3,414,252        2,005,265

  Supplies                                -               -                -                    -

  Construction                            -               -                -                    -

  Contract/Consultant                     -               -                -                    -
  Other (Installation/
                                  579,500                 -         579,500                     -
  Engineering/Licensing)
TOTAL DIRECT COSTS              3,998,500                 -       3,998,500                     -

  Indirect Costs                          -               -                -                    -

TOTAL PROJECT COSTS            3,998,500                  -      3,998,500        2,005,876

FEDERAL FUNDS                  2,998,875                  -      2,998,875        1,649,258

LOCAL MATCH                     $999,625                  -      $999,625          $356,618

Source: COPS Office and Bonneville County accounting records

Matching Costs

      As shown in Table 3, under Grant No. 2007-CK-WX-0033, Bonneville
County was required to provide $999,625 in local matching funds, which
represents 25 percent of the total project budget. At the time of our audit,
project expenditures were $2,005,876 and the match expenditure was
$356,618, which represented 17.8 percent of total expenditures. Bonneville
County officials stated they were monitoring the match funds provided and
would ensure the local match requirement was met fully by the end of the
grant period. 2 We reviewed all 18 matching transactions for allowability and
supporting documentation and found no discrepancies.

Accountable Property

     OMB Circular A-133 requires grantees to implement controls to ensure
property and equipment purchased with federal funds are properly

       2
          According to the 2007 Technology Program Grant Owner’s Manual, matching
contributions may be applied at any time during the life of the grant, provided that the full
matching share is obligated by the end of the grant period.


                                               7

safeguarded against loss from unauthorized use or disposition. As described
in the Budget Management and Control section of this report and illustrated
in Table 3, Bonneville County budgeted $3,414,252 for equipment and
expended $2,005,265 at the time of our audit. We received Bonneville
County’s records for accountable equipment and selected a judgmental
sample of equipment items in order to verify that the items were shown as
federally funded, physically confirm the items based upon identification
numbers on records, and confirm they were being used as shown in the
grant award documentation. We identified no discrepancies during this
review.

Reports

      According to the COPS 2007 Technology Program Grant Owner’s
Manual, award recipients are required to submit both financial and program
progress reports. These reports describe the status of the funds and the
project, compare actual accomplishments to the objectives, and report other
pertinent information. We reviewed FSRs and annual Progress Reports, and
found the FSRs and Progress Reports were timely and accurate.

Financial Status Reports

      The COPS 2007 Technology Program Grant Owner’s Manual requires
grantees to submit FSRs no later than 45 days after the end of each quarter.
We reviewed the four most recently submitted FSRs and found all four were
submitted timely, as shown in Table 4.

  TABLE 4. FINANCIAL STATUS REPORT HISTORY
        REPORT PERIOD
       FROM - TO DATES         FSR DUE DATE        DATE SUBMITTED   DAYS LATE
     01/01/09 - 03/31/09         05/14/09             04/01/09         0
     04/01/09 - 06/30/09         08/14/09             07/01/09         0
     07/01/09 - 09/30/09         11/14/09             10/05/09         0
     10/01/09 - 12/31/09         02/14/10             01/04/10         0
  Source: COPS Office and Bonneville County accounting records

      We also reviewed the four most recently submitted FSRs for accuracy
and found that the reports accurately reflected grant funded expenditures,
as shown in Table 5.




                                          8

  TABLE 5. FINANCIAL STATUS REPORT ACCURACY

                                                                     DIFFERENCE
                                                                      BETWEEN
                                                EXPENDITURES PER       FSRS &
        REPORT PERIOD       EXPENDITURES PER      ACCOUNTING         ACCOUNTING
       FROM - TO DATES            FSR               RECORDS           RECORDS
    01/01/09 - 03/31/09             $24,534              $24,534            $0
    04/01/09 - 06/30/09                    0                     0           0
    07/01/09 - 09/30/09             193,665              193,665             0
    10/01/09 - 12/31/09              14,270               14,270             0
  Source: COPS Office and Bonneville County accounting records

Program Progress Reports

       According to the COPS 2007 Technology Program Grant Owner’s
Manual, progress reports are due annually on notification to the grantee by
the COPS Office. The COPS Office sent Program Progress Report
notifications to Bonneville County for 2008 and 2009. The progress reports
we reviewed were submitted timely, as shown in Table 6.

      The reports we reviewed appeared to be acceptable in form and
content; reports were completed in a survey format rating a series of
program performance statements on a scale of 1 to 10. The reports we
reviewed were completed fully and appeared relevant to performance of the
grant funded program.

  TABLE 6. PROGRESS REPORT HISTORY
       REPORT PERIOD
      FROM - TO DATES           DUE DATE          DATE SUBMITTED     DAYS LATE
    01/01/08 - 12/31/08         02/30/09             01/26/09           0
    01/01/09 - 12/31/09         01/30/10             01/25/10           0
  Source: COPS Office

Compliance with Grant Requirements

      We reviewed the grant requirements and special conditions and
determined there were four key requirements: (1) any vendor or contractor
who participated in drafting the grant application may not receive federal
funding for any procurement under this award; (2) mandatory technical
assistance training and technical assistance site visit; (3) technology should
be compatible with Global Justice XML Data Model/National Information
Exchange Model and Project 25 standards; and (4) sole source purchasing
must be pre-approved for non-competitive procurements in excess of




                                           9

$100,000. We found that all grant requirements and special conditions had
been met by Bonneville County.

Program Performance and Accomplishments

      According to the award documentation, the goal of Bonneville County
and associated agencies in this grant funded project is to integrate
communications for first responders in order to effectively respond to major
incidents and increase cooperation. The award documentation states
objectives to be achieved from the implementation of an interoperable
communication system:

   •	 Implement the Bonneville County Project 25 Digital Radio Plan

   •	 Enhance personal safety for the first responder

   •	 Continue to foster partnerships across state and local jurisdictions

   •	 Enhance public safety

   •	 Enhance operational capabilities

   •	 Educate policy-maker, at all levels of the government, in order to gain
      strong support and adequate funding into the future

   •	 Provide a cost effective and flexible means of developing an
      infrastructure to advance interoperable communications throughout
      the state through the Idaho Cooperative Agencies Wireless Integrated
      Network (I-C-A-WIN)

       Bonneville County utilized a project schedule with delivery and
installation milestones to monitor progress, and vendor payments were
made based upon those milestones. Once all current equipment is delivered
and installed, Bonneville County officials will measure performance data by
mapping radio signals throughout the region. Two remaining radio
transmitter locations will then be determined, based upon the signal
mapping.

       According to Bonneville County officials, the project is slightly behind
schedule due to a change in the milestone for fire department
interoperability. After the start date for the COPS grant, a local fire
department received a grant that had a one year completion timeline, so
fire-related communications provided under the COPS grant were
accelerated to provide a functional 700 MHz communications system for fire


                                      10

department interoperability. This acceleration delayed mobile radio and
portable radio purchases under the grant. Bonneville County officials stated
they are watching the timeline and intend to request a time extension from
COPS for Grant No. 2007-CK-WX-0033.

Monitoring Contractors

      We determined that Bonneville County has one contractor for this
grant, a vendor that provides all equipment and installation services under a
communication system purchase agreement. While the COPS 2007
Technology Program Grant Owner’s Manual and grant award documents do
not require specific vendor monitoring procedures, OMB Circular A-133
requires grant recipients to ensure that vendor procurement, receipt, and
payment for goods and services comply with laws, regulations, and the
provisions of contracts or grant agreements. Through interviews with
Bonneville County officials and review of documentation, we determined that
Bonneville County appears to satisfactorily monitor the vendor’s
procurement, receipt, and payment processes under the purchase
agreement, as well as inventory monitoring as noted in the Accountable
Property section of this report.




                                     11

                                                               APPENDIX I



               OBJECTIVES, SCOPE, AND METHODOLOGY


      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance
in the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, including personnel and indirect costs, (4) budget
management and control, (5) matching, (6) property management,
(7) program income, (8) financial status and progress reports, (9) grant
requirements, (10) program performance and accomplishments, and
(11) monitoring of subgrantees and contractors. We determined that
personnel and fringe costs, supplies costs, consultant/contractual costs,
indirect costs, program income, and subgrantees were not applicable to
this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
of the grant on September 1, 2007, through the entrance conference on
February 22, 2010. This was an audit of the Office of Community
Oriented Policing Services (COPS Office) Technology Program Grant
No. 2007-CK-WX-0033 in the amount of $2,998,875 awarded by the
COPS Office to Bonneville County, Idaho. Bonneville County made four
drawdowns totaling $1,649,258.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the COPS 2007 Technology Program Grant
Owner’s Manual and the grant award documents.

       In conducting our audit, we performed sample testing in four areas,
which were drawdowns, grant expenditures, matching costs, and property
management. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
dollar amounts or expenditure category. We identified samples of
4 drawdowns, 4 grant expenditures, 18 matching expenditures, and 23
items of accountable property. This non-statistical sample design does not


                                     12

                                                                APPENDIX I


allow projection of the test results to the universes from which the samples
were selected.

       In addition, we reviewed the timeliness and accuracy of FSRs and
Progress Reports, evaluated performance to grant objectives, and evaluated
the grantee’s monitoring of the contractor; however, we did not test the
reliability of the financial management system as a whole.




                                     13

                                                                                              APPENDIX II




                                                U.S. Department of Justice
                                                Office of Community Oriented Policing Services (COPS)
COPS Audit Liaison Division
1100 Vermont Avenue, NW
Washington, D.C. 20530
202-353-9706 (Telephone)
202-616-4428 (Facsimile)



                                           MEMORANDUM

Via Facsimile and U.S. Mail
To:           David M. Sheeren
              Regional Audit Manager
              Denver Regional Audit Office

From:             Lashon M. Hilliard
                  Management Analyst
                  COPS Audit Liaison Division

Date:             June 17, 2010

Subject:          Response to Draft Audit Report for COPS Technology Grant Number
                  #2007CKWX0333 to the Bonneville County Sheriff’s Office, Bonneville County,
                  Idaho, ORI ID01000


        This memorandum is in response to your draft audit report, dated May 7, 2010, for the
Bonneville County Sheriff’s Office, Bonneville, ID. Based on the OIG’s draft audit report, the
report identified no audit findings, and therefore, at the time of the audit (emphasis added), the
Bonneville County Sheriff’s Office appears to be implementing the above referenced grant under
COPS terms and conditions and COPS issues this response for the record.

        The COPS Office would like to thank you for the opportunity to review and respond to
the draft audit report. If you have any questions, please contact me at (202) 514-6563.

cc:      David M. Sheeren (copy provided electronically)
         Regional Audit Manager
         Office of the Inspector General
         Denver Regional Audit Office

         Richard P. Theis (copy provided electronically)
         Director, Audit Liaison Office
         Justice Management Division




                                                  14

                                                                         APPENDIX II

David M. Sheeren, Regional Audit Manager, Denver Regional Audit Office
June 17, 2010
Page 2

      Cynthia A. Bowie (copy provided electronically)

      Assistant Director

      COPS Audit Liaison Division


      Nancy J. Daniels (copy provided electronically)

      Administrative Assistant

      COPS Audit Liaison Division


      Audit File Copy

      ORI ID01000




                                             15

